}.

i

4

No.

2

19-1502

18-CV-13296

IN THE
SUPREME COURT OF THE UNITED STATES
Washington, D.C..

Lawrence L. Coltoh

— PETITIONER

(Your Name)

vs.
J.A. Terris, Warden

FILED
MAR 1 8 2020

— RESPONDENT(S)

OFFICE-OF THE CLERK
SUPREME COURT. U.S.

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Sixth Circuit

(NAME OF COURT THAT LAST RULED ON MERITS-OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Lawrence L. Colton #16069-041

(Your Name)
Federal Correctional Institution, P.O. Bcoc 1000

(Address)
Milan, Michigan 48160

;•

(City, State, Zip Code)

. (Phone Number)

.

;
*

■v

i

QUESTION(S) PRESENTED
Whether the Order of the United States Court of Appeals for the Sixth
Circuit is procedurally invalid because the Panel failed to consider, and
i

' '

*•

overlooked the issue of whether the District Court abused its discretion when
it failed to consider and exercise its discretion in determining whether
Petitioner's Petition for Writ of Habeas Corpus Pursuant to Section 28 U.S.C.
§ 2243 was appropriate, in the interests of .justice?

V

/

■5

(i)

*

J

LIST OF PARTIES

[*] All parties appear in the caption of the case on the. cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

/

;

(ii)

TABLE OF CONTENTS
OPINIONS BELOW
JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

c

CONCLUSION

G

INDEX TO APPENDICES

APPENDIX A The Order denying Petitioner s Appeal

APPENDIX B The Order denying Petitioner s Petition for Writ of Habeas Corpus

APPENDIX C The Order denying Petitioner's Motion to Stay the Mandate

APPENDIX D The Order denying Petitioner's Petition for Panel Rehearing

APPENDIX E

APPENDIX F

(iii)

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

\

STATUTES AND RULES
28 U.S.C. § 2243

i, 4, 5

28 U.S.C. § 1254(1)

2

28 U.S.C. § 2241

4

23 U.S.C. § 1231

4

OTHER

(Iv)

‘

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ d is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

b__to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
. to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[x] .For cases from federal courts:
The date on which the United States Court of Appeals decided my case
Was

January 8. 2020_______ „

[ ] No petition for rehearing was timely filed in my case.
k 3 A timely petition for rehearing was denied by the United States Court of
March 2, 2020
Appeals on the following date:
and a copy of the
order denying rehearing appears at Appendix
d
.
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix ______
[ ] A timely petition for rehearing was thereafter denied on the following date:
■_________,_____and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
_ (date) on
i_ (date) in
/
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

>

2.

e

*

i

?

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

28.U.S.C. § 1254(1)
28 U.S.C. § .1291

:•

28 U.S.C. § 2241
28 U.S.C. § 2248

*«•

V.

'

y

/

3.

s
STATEMENT OF THE' CAS.S, .
In October 2018, Petitioner filed a Petition for Writ of Habeas Corpus
under Section 28 U.S.C. § 2241 in the United States District Court Eastern
District of Michigan Southern Division.rOn March 7, 2019, the District Court
denied Petitioner's Petition for Writ of Habeas Corpus. (See Appendix B)'.
Petitioner filed a Motion for Reconsideration. On April 23, 2019, the District
Court denied Petitioner's Motion for Consideration. The United States District
Court Eastern District of Michigan Southern Division had subject matter
jurisdiction over Petitioner's Habeas Proceedings pursuant to Section 28 U.S.C.
§ 2241. Petitioner filed a Notice of Appeal. On January 8, 2020, the United
States Court of Appeals for the Sixth Circuit denied Petitioner's Appeal.
(See Appendix A). On January 14, 2020, Petitioner filed a Motion to Stay the
Mandate and a Petition for Panel Rehearing. On January 27, 2020, the United
States Court of Appeals for the Sixth Circuit denied Petitioner's Motion to
Stay the Mandate. (See Appendix C)• On March 2, 2020, the United States
x
Court of Appeals for the Sixth Circuit denied Petitioner's Petition for Panel
Rehearing. (See Appendix D). The United States Court of Appeals for'the Sixth
Circuit had subject matter jurisdiction over Petitioner's Appeal pursuant to
Section 28 U.S.C. § 1291.
The question presented in this case^whether the Order of the United States
Court of Appeals for the Sixth Circuit is procedurally invalid because the
Panel failed to consider and overlooked the issue of whether the District
Court abused its discretion when it failed to consider and exercise its
discretion in determining whether Petitioner's Petition for Writ of Habeas
Corpus Pursuant to Section 28 U.S.C. § 2243 was appropriate, in the interests
of justice. The Panel's decision•denying. Petitioner's Appeal was unaccompanied
by any explanation or reason that it considered the issue in Petitioner's
Brief. The Panel was obligated to consider the issue and provide
a reasoned
4.

.i

explanation of whether the District Court abused its discretion in regard to
the issue. The Panel overlooked the issue.
The question presented in this case involves an important public interest
- the public's interest in the integrity of the judicial process. The public
has a significant interest in protecting the integrity of the appeal process
by ensuring strict adherence to Appellate Court procedures in adjudicating
issues on the merits on appeal. This Court has emphasized repeatedly that a
failure to adhere to the Court's uniform procedures in adjudicating issues on
the merits on appeal undermines the very integrity of the Courts and
undermines public confidence in adjudication
REASONS FOR GRANTING THE PETITION
A. The Court of Appeals has so far depaited from the accepted and
usual course of Judicial Proceedings &s to call for an exercise
of this Court's Supervisory Power
At issue here is whether the Order of the three Panel Judges for the
Sixth Circuit Court of Appeals is invalid because the Court failed to consider
and overlooked the question of whether the District Court abused it discretion
when it failed to consider and exercise its discretion in determining whether
Petitioner's Petition for Writ of Habeas Corpus Pursuant to Section 28 U.S.C.
§ 2243 was appropriate, in the interests of justice.
The Court of Appeals' Order denying Petitioner's Appeal was unaccompanied
by any explanation of reason that it considered issue two in Petitioner's
Appellate Brief. The Court was obligated to consider issue two and provide a
reasoned explanation of whether the District Court abused its discretion when
it failed to consider whether Petitioner's Petition for Writ of Habeas Corpus
Pursuant to Section 28 U.S.C. § 2243 was appropriate, in the interests of
justice. The Court's Order contained no analysis for this Court to conduct a
meaningful review of issue two. Judicial decisions are reasoned decisions. The
Panel overlooked issue two in Petitioner's Brief.
5.

■

B. The issue presented was of significant public interest

‘Supreme Court review is needed here because the issue in this case raises
an important public interest - the public's interest in the integrity of the
judicial Process. The public has a significant interest in preserving the
integrity of the Appeal Process by ensuring strict adherence to Appellate
Procedures in adjudicating issues on the merits on appeal. The very integrity
of the Court is jeopardized when the Court fails to adhere to the Court's
uniform procedures in adjudicating issues on the merits on appeal. To preserve
public confidence in the integrity of the Appeal Process, this overlooked
issue must be resolved because this Court has emphasized repeatedly that a
failure to adhere to the Court's uniform procedures undermines the very
integrity of the Court's and undermines public confidence in adjudication.

CONCLUSION
Wherefore, for the reasons stated, Petitioner Lawrence L. Colton
respectfully requests that this Court grant this Petition for Writ of
Certiorari Pursuant to the Court's Supervisory Power, in the interests of
justice.

Respectfully Submitted,

Lawrence L. Colton
'
Federal Correctional Institution
P.0. Box 1000
Milan, MI 48160

6.

